TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         New Employees Are Being Hired
                             More Quickly; However,
                          Improvements Are Needed to
                       Correct Some Hiring Monitoring Data



                                       November 27, 2012

                              Reference Number: 2013-10-007




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


NEW EMPLOYEES ARE BEING HIRED                          than half. As a result, it is close to meeting the
MORE QUICKLY; HOWEVER,                                 Office of Personnel Management (OPM)
IMPROVEMENTS ARE NEEDED TO                             80-calendar-day hiring goal. Similarly, the
CORRECT SOME HIRING MONITORING                         Wage and Investment Division has taken action
                                                       to reduce hiring timelines and is also close to
DATA
                                                       meeting the OPM hiring goal.
                                                       The Small Business/Self-Employed Division
Highlights                                             uses a hiring process that is based on bringing
                                                       large groups of employees on board at the same
Final Report issued on                                 time for training and orientation purposes. While
November 27, 2012                                      this may result in efficient training and
                                                       orientation programs for enforcement personnel,
Highlights of Reference Number: 2013-10-007            it can take up to 200 calendar days to hire
to the Deputy Commissioner for Operations              employees, which results in not meeting the
Support and the Deputy Commissioner for                hiring goal.
Services and Enforcement.                              In addition, TIGTA determined that data for
IMPACT ON TAXPAYERS                                    monitoring the time taken to hire new employees
                                                       was not always correct. TIGTA identified that
Hiring quality employees quickly is important to       IRS Human Capital Office report data was
the IRS, as it hires a large number of employees       incorrect for nine (38 percent) of the
each year. The IRS divisions and Human                 24 Information Technology organization hires in
Capital Office have taken action to reduce hiring      TIGTA’s sample. The incorrect data occurred
timelines. However, they will need to continue         because the incorrect certificate (a list of
to focus on keeping hiring timelines low and           applicants that is certified by the IRS Human
making additional improvements. If not, as the         Capital Office) was selected for manually rated
economy improves and the IRS competes more             and ranked applications. Finally, the
with the private sector, the IRS may encounter         IRS Human Capital Office did not correctly enter
difficulties attracting highly qualified candidates.   the date the rating and ranking package was
This could impact the IRS’s ability to meet its        returned from the hiring manager. As a result,
mission of providing America’s taxpayers top           IRS divisions cannot rely on the reports to
quality service.                                       monitor in-process hiring or to identify when
                                                       hiring delays occur.
WHY TIGTA DID THE AUDIT
                                                       WHAT TIGTA RECOMMENDED
This audit was requested by the IRS and
addresses the major management challenge of            TIGTA recommended that the Director,
Human Capital. The overall objective was to            IRS Human Capital Office Employment, Talent,
assess actions taken by the IRS divisions to           and Security, deactivate certificates that are not
monitor and improve the efficiency of hiring new       used, provide guidance to employment offices
employees.                                             for selecting the correct certificates, and correct
                                                       computer report-writing programming to ensure
WHAT TIGTA FOUND                                       the correct date is used in calculating hiring
The IRS divisions and Human Capital Office             timelines.
have taken action to monitor and improve the           IRS management agreed and implemented
efficiency of hiring new employees. Most               corrective actions to deactivate certificates and
improvements resulted from automating                  provide guidance. IRS management also
time-consuming manual steps in the hiring              provided alternative corrective actions to monitor
process and monitoring in-process hiring. For          and emphasize quality review so hiring timelines
example, in a little more than two years, the          can be accurately calculated. In addition, the
Information Technology organization has cut the        IRS provided technical comments, which were
time it takes to hire new employees by more            incorporated into the report as appropriate.
                                               DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            November 27, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – New Employees Are Being Hired More Quickly;
                             However, Improvements Are Needed to Correct Some Hiring
                             Monitoring Data (Audit # 201110034)

 This report presents the results of our review to assess the actions taken by the Internal Revenue
 Service (IRS) divisions to monitor and improve the efficiency of hiring new employees. This
 review was conducted as part of the Treasury Inspector General for Tax Administration’s
 Fiscal Year1 2012 Annual Audit Plan and addresses the major management challenge of Human
 Capital.
 Management’s response to the draft report is included as Appendix V. The IRS also provided
 technical comments, which we incorporated into the report as appropriate.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).




 1
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
 Government’s fiscal year begins on October 1 and ends on September 30.
                                    New Employees Are Being Hired More Quickly;
                                       However, Improvements Are Needed to
                                        Correct Some Hiring Monitoring Data




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Progress Has Been Made in Reducing the Amount of
          Time It Takes to Hire New Employees......................................................... Page 5
          Data for Monitoring the Time Taken to Hire New
          Employees Were Incorrect for Some Manually Rated
          and Ranked Applications .............................................................................. Page 10
                    Recommendations 1 and 2: .............................................. Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – Management’s Response to the Draft Report ....................... Page 19
        New Employees Are Being Hired More Quickly;
           However, Improvements Are Needed to
            Correct Some Hiring Monitoring Data




               Abbreviations

FY       Fiscal Year
HCO      Human Capital Office
IRS      Internal Revenue Service
IT       Information Technology
OPM      Office of Personnel Management
SB/SE    Small Business/Self-Employed
W&I      Wage and Investment
                               New Employees Are Being Hired More Quickly;
                                  However, Improvements Are Needed to
                                   Correct Some Hiring Monitoring Data




                                            Background

The Federal hiring process has been criticized because it is lengthy and burdened by numerous
requirements. In response, the President and the Office of Personnel Management (OPM) have
taken actions to reduce the amount of time it takes to hire new employees. For example:
       In September 2008, the OPM developed the End-to-End Hiring Roadmap to encourage
        agencies to reduce the time necessary to hire employees to 80 calendar days or less. The
        roadmap suggested time periods for individual steps in the hiring process when hiring
        single employees from outside the Federal Government to fill a single open position
        (known as ad hoc hiring).
       In May 2010, the President issued a memorandum requiring agencies to substantially
        reduce the time it takes to hire mission-critical1 and commonly filled positions, measure
        the quality and speed of the hiring process, analyze the causes of agency hiring problems,
        and identify actions that will be taken to reduce them.
       In April 2011, the OPM required agencies to begin reporting the percentage of new hires
        that meet the 80-calendar-day standard, the average calendar days to hire new employees
        as a whole, and the average calendar days to hire the agency’s mission-critical positions.
With approximately 100,000 employees, it is especially important to the Internal Revenue
Service (IRS) to be able to quickly hire quality employees. However, hiring new employees can
be complex because of the need for the IRS to hire a large number of employees at one time or to
hire these employees in a short period of time. For example, the IRS hires a large number of
employees each year for the tax filing season.2 These new employees must be hired quickly to
ensure they are trained and in place once the filing season begins. The IRS hired approximately
19,000 employees in Fiscal Year3 (FY) 2011 to meet workload demand. Figure 1 shows the
three primary hiring categories used by the IRS.




1
  Mission-critical occupations are those few occupations that comprise the unique core competencies of the IRS or
have the greatest direct impact on the agency’s ability to meet its mission.
2
  The period from January through mid-April when most individual income tax returns are filed.
3
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
                                                                                                           Page 1
                                            New Employees Are Being Hired More Quickly;
                                               However, Improvements Are Needed to
                                                Correct Some Hiring Monitoring Data



                                               Figure 1: IRS Hiring Categories

                          Category             Description                                  Use

                                         Hiring for a single open     Used by all divisions within the IRS,
                           Ad Hoc
                                         position.                    especially the Information Technology (IT)
                           Hiring4
                                                                      organization.

                                         Hiring to fill a large       Used to hire revenue agents,6 revenue
    Non–Ad Hoc Hiring5




                                         number of positions prior    officers,7 and tax compliance officers;8
                         Wave Hiring
                                         to a scheduled training.     primarily used by the Small Business/
                                                                      Self-Employed (SB/SE) Division.

                                         Hiring from a register9 of   Used by the Wage and Investment (W&I)
                         Filing Season   candidates who can be        Division.
                             Hiring      called to work when
                                         needed.
Source: The IRS Human Capital Office Employment, Talent, and Security Division’s data dictionary and
discussions with IRS Human Capital Office managers.

The IRS’s hiring process is a collaborative effort between the IRS Human Capital Office (HCO),
the human capital offices within each of the IRS’s divisions, and the IRS hiring managers.10 The
IRS HCO and each division’s human capital office have responsibility for parts of the hiring
process, and, in order for the process to be efficient, these offices must coordinate with each
other. For example:
                        The IRS HCO is responsible for developing strategies to improve the timeliness of hiring
                         new employees and reporting the IRS’s progress to the OPM.




4
  Method used to hire approximately 10 to 15 percent of total new hires.
5
  Methods, when combined, are used to hire approximately 85 to 90 percent of total new hires.
6
  Revenue agents perform examinations of individuals and businesses and are critical positions for achieving the
IRS’s mission.
7
  Revenue officers collect taxes due and are critical positions for achieving the IRS’s mission.
8
  Tax compliance officers conduct investigations of individuals and businesses to determine tax liabilities and
provide technical assistance to internal and external customers. These positions are considered mission-critical.
9
  A register is a list of applicants that have been prequalified for a job.
10
   The IRS is organized into four business operating divisions that serve groups of taxpayers, including the Large
Business and International, SB/SE, Tax Exempt and Government Entities, and W&I Divisions. The
IRS’s functional operating divisions, including the Agency-Wide Shared Services organization, the IRS HCO, and
the IT organization, provide support services to the entire IRS organization.
                                                                                                                 Page 2
                                        New Employees Are Being Hired More Quickly;
                                           However, Improvements Are Needed to
                                            Correct Some Hiring Monitoring Data



                    The IRS’s divisions have embedded human capital offices to coordinate hiring activities
                     with the operating offices11 and the IRS HCO. In addition, these human capital offices
                     within the divisions have human resource specialists to coordinate with the hiring
                     managers.
Figure 2 shows the basic steps in the IRS hiring process and which office controls the time spent
on each step.
                              Figure 2: IRS Division Involvement in the Hiring Process

                             IRS            IRS           IRS                 IRS                    IRS




                                                                                                                     Enter-On-Duty
     Start – Personnel




                             HCO          Divisions       HCO               Divisions                HCO
      Action Request




                                                                                                                         End –
                                                          Issue
                           Open and       Rate and
                                                        Certificate    Conduct      Make       Security   Official
                           Close Job       Rank
                                                            of        Interviews   Selection    Check      Offer
                         Announcement    Applications
                                                        Eligibles12

Source: The OPM End-to-End Hiring Roadmap and discussions with IRS HCO managers.

The IRS is currently under a hiring freeze for most positions, making it more difficult to replace
the large number of employees expected to retire or leave their jobs over the next several years.
Filing season hiring continues, although at lower levels, and a limited number of other positions
may be filled through ad hoc hiring. However, the IRS has not conducted significant wave
hiring since FY 2009.
Our review included hiring timeline assessments in two IRS operating divisions and
one functional operating division that are doing the most ad hoc, filing season, and wave hiring.
For ad hoc hiring, we reviewed the IT organization, including hiring for the Affordable Care
Act.13 For filing season and wave hiring, we reviewed the hiring timelines for the W&I and
SB/SE Divisions, respectively.
This is the second audit of IRS hiring timelines. The first audit focused on the IRS HCO’s
efforts to monitor and improve hiring timelines,14 while this audit focused on the IRS divisions’
efforts to monitor and improve hiring timelines. The hiring process crosses IRS division and

11
   For example, the Examination function is an operating office of the SB/SE business operating division.
12
   A list of applicants for consideration for hire that is certified by the IRS HCO as meeting the eligibility
requirements for the position. For SB/SE Division’s mission-critical occupations, a pass/fail interview is part of the
qualification process and is conducted prior to the issuance of the Certificate of Eligibles.
13
   Patient Protection and Affordable Care Act (Affordable Care Act), Pub. L. No. 111-148, 124 Stat. 119 (2010)
(codified as amended in scattered section of the U.S. Code), as amended by the Health Care and Education
Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
14
   Treasury Inspector General for Tax Administration, Ref. No. 2011-10-089, The Human Capital Office Improved
the Hiring Process, but Additional Actions Can Be Taken to Better Monitor Hiring Timelines (Aug. 2011).
                                                                                                                 Page 3
                          New Employees Are Being Hired More Quickly;
                             However, Improvements Are Needed to
                              Correct Some Hiring Monitoring Data



HCO boundaries and, when improvements to the hiring process are undertaken, strong
collaboration is required between all offices involved.
This review was performed in the IRS HCO Employment, Talent, and Security Division and the
IT organization offices at the IRS National Headquarters in Washington, D.C.; in the
SB/SE Division in New Carrollton, Maryland; and in the W&I Division in Atlanta, Georgia,
during the period September 2011 through April 2012. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
                           New Employees Are Being Hired More Quickly;
                              However, Improvements Are Needed to
                               Correct Some Hiring Monitoring Data




                                 Results of Review

In June 2009, the IRS reported it took more than five months (157 calendar days) for ad hoc
hiring from outside the Government. Similar statistics were not tracked and reported for wave
and filing season hiring in 2009. However, since then, the IRS divisions we reviewed have taken
actions to monitor and improve the efficiency of hiring new employees. These improvements
can be largely attributed to:
      Collaborating with the IRS HCO to automate time-consuming manual steps in the hiring
       process within the IRS’s Career Connector computer system. Career Connector is a
       computer system that allows individuals applying for a job within the IRS to
       electronically submit resumes and applicant qualification documentation (e.g., college
       transcripts), performs automatic reviews of applications to assess whether applicants
       meet job requirements, identifies which applicants are the best qualified, and sends
       communications to applicants.
      Establishing processes to monitor in-process hiring, including review of job
       announcement inventory and hiring status reports and development of detailed hiring
       timeline plans.
While the IRS has improved its hiring timelines, it should continue to focus on further reducing
these timelines where possible. If the hiring process takes too long, the IRS can risk losing
highly qualified applicants, which could impact the IRS’s ability to meet its mission of providing
America’s taxpayers top quality service. Also, as the economy improves and the IRS competes
more with the private sector, it may encounter difficulties attracting highly qualified individuals
because candidates may accept positions with employers that can hire faster.

Progress Has Been Made in Reducing the Amount of Time It Takes to
Hire New Employees
Our review identified that in a little more than two years, the IT organization has cut the time it
takes to hire new employees by more than half. As a result, it is close to meeting the
OPM 80-calendar-day hiring goal. Similarly, actions taken by the W&I Division have reduced
hiring timelines, and, as a result, the division is also close to meeting the OPM hiring goal.
However, the SB/SE Division continues to use wave hiring which is based on bringing large
groups of employees on board at the same time for training and orientation purposes. While
wave hiring may result in fewer training classes and increased camaraderie for new enforcement
personnel, for employees who were hired first, it can take up to 200 calendar days before they
report for work. As a result, the SB/SE Division will not meet the OPM 80-calendar-day hiring
goal or the President’s requirement to substantially reduce the time it takes to hire for
                                                                                             Page 5
                                New Employees Are Being Hired More Quickly;
                                   However, Improvements Are Needed to
                                    Correct Some Hiring Monitoring Data



mission-critical positions. It should be noted that the IRS reported for the third quarter of
FY 2012 that it took an average of 54 calendar days to hire all new employees.15

The IT organization has significantly reduced the amount of time it takes to hire
new employees
The IT organization, which hires the most new employees for individual positions, has made
substantial progress in monitoring and improving the efficiency of ad hoc hiring. IT
organization hiring timelines were reduced from 218 calendar days in November 200916 to an
average of 90 calendar days as of the end of March 2012.17 The IT organization took the
following actions to accomplish its hiring timeline reduction:
        Career Connector Automation – The IT organization worked with the IRS HCO to
         create Career Connector templates for 98 percent of its positions.18 These templates are a
         series of online questions designed to determine if applicants possess the skills and
         knowledge related to a specific job and are used by the Career Connector computer
         system to automatically determine which applicants qualify and are the best candidates
         for a position. Use of the Career Connector templates has resulted in a decrease in the
         number of job announcements requiring time consuming manual rating and ranking. For
         example, applicants that previously had to be manually rated and ranked took an average
         of 32 calendar days in FY 2010,19 as opposed to less than one day when completed
         through Career Connector.
        Monitoring of Inventory Reports – IT management uses IRS HCO in-process inventory
         reports, in addition to other developed reports, to actively monitor job announcement
         inventory. For example, an IT organization employee monitors these hiring reports and
         follows up with hiring managers when the interview and selection process takes more
         than the standard amount of time (14 calendar days for internal and 24 calendar days for
         external announcements). The reason for any delays, such as unavailability of candidates
         for interviews or salary negotiations, is then recorded in these reports.
        Addressing Causes for Recurring Delays – IT management uses the above-mentioned
         annotated inventory reports to identify and address causes for recurring hiring delays.

15
   Results for the period April through June 2012, per the third quarter report to the Department of the Treasury
provided by the IRS HCO. The timeline begins when the hiring manager submits an approved request to hire;
therefore, it does not include the time for announcements to prequalify applicants for filing season hiring, such as
standing registers. During this period, the IRS did not conduct any wave hiring.
16
   Based on the IRS HCO’s mapping of a single IT organization position.
17
   Time was measured from receipt of the personnel action request to hire a new employee until the new employee
reported for work.
18
   Percentage provided by the IT organization’s human capital office management. The remaining positions are
those that are obsolete or rarely filled.
19
   Average computed using data provided by the IRS HCO for the IT organization’s ad hoc hiring announcements.
                                                                                                              Page 6
                                New Employees Are Being Hired More Quickly;
                                   However, Improvements Are Needed to
                                    Correct Some Hiring Monitoring Data



         For example, we reviewed 24 ad hoc hiring announcements20 with entry-on-duty dates for
         the period October 1, 2009, through November 21, 2011, where IRS HCO data indicated
         the selection of the new employee was delayed. For four of the delays, the hiring
         managers did not completely understand the hiring process. After recognizing this, the
         IT organization provided training to hiring managers in July 2011. After this training
         was provided, we did not identify any additional delays due to hiring managers’ lack of
         understanding the hiring process.

The W&I Division is close to meeting the 80-calendar-day goal for hiring
employees
W&I Division management does not track the amount of time it takes to hire filing season
employees, but closely monitors whether enough new employees are hired to meet hiring
projections. 21 We determined that the W&I Division, which hires new employees through the
use of filing season hiring,22 takes an average of 90 calendar days23 to hire new employees.
W&I Division management stated they are closer to meeting hiring projections because they are
able to hire more quickly and because the current economic climate has increased the number of
applicants applying for positions. In addition, the W&I Division took the following actions in an
effort to continue to reduce hiring timelines:
        Career Connector Automation – Similar to the IT organization, the W&I Division
         worked with the IRS HCO to develop Career Connector templates for approximately
         80 percent24 of all filing season positions filled each year. These templates are used for
         external application processing and were used for internal applications for the first time
         for the 2011 Filing Season. Templates for the remaining commonly filled positions are
         on schedule to be completed by December 2012. These additional templates will assist in
         further reducing hiring timelines.



20
   See Appendix I for additional information about the sampling methodology.
21
   Filing season hiring employs a combination of wave and ad hoc hiring, which makes it difficult to compare to
other types of hiring.
22
   Candidates are prequalified and called to work as needed during the tax filing season.
23
   We calculated this timeline using IRS HCO filing season announcement data from approval to hire to
enter-on-duty date for the period October 2011 through March 2012. Timelines are presented in this manner
because it reflects the point in time when the IRS identified that it needed to hire a new employee. The IRS HCO
used the OPM’s hiring timeline reporting guidance to calculate some of these announcement timelines from the date
of the Certificate of Eligibles, which resulted in an average of 76.2 calendar days for this period. The OPM’s hiring
timeline reporting guidelines exclude time spent preparing registers and prequalifying candidates for filing season
hiring.
24
   Percentage provided by the W&I Division’s human capital office management staff. According to management,
template development must be scheduled when subject matter experts can be pulled off line during noncritical
periods.
                                                                                                             Page 7
                               New Employees Are Being Hired More Quickly;
                                  However, Improvements Are Needed to
                                   Correct Some Hiring Monitoring Data



        Monitoring Filing Season Hiring Reports – Since FY 2003, filing season hiring has
         been monitored using a report prepared by the IRS HCO. This report tracks hiring
         targets, number of commitments, and number of employees reporting for work. For
         example, because many candidates do not report to work as agreed or fail to pass
         background investigations,25 these reports are used to identify if hiring targets have been
         met. W&I Division management works closely with the IRS HCO employment offices
         co-located in the IRS campuses26 to quickly replace new hires who do not report for work
         before workload is affected.27
        Campus Business Centers – The IRS HCO established Campus Business Centers to
         provide computer access beginning in FY 2011 to more than 12,000 W&I Division
         employees so they could identify and apply for job openings using Career Connector.
         Educational materials were distributed, and on-site seminars were conducted on how to
         use Career Connector to apply for the positions. These employees do not have access to
         a computer in their work area and may not have access to one at home to identify and
         apply for jobs in Career Connector. Establishing the business centers reduced hiring
         timelines by providing a means for current employees to more easily apply for jobs. In
         addition, the centers provide the ability to electronically apply for positions, which
         eliminates manual internal applications and speeds up the hiring process, while also
         increasing the applicant pool with employees who already have the skills needed by the
         IRS. Adequate applicant pools mean fewer jobs have to be reannounced to find needed
         employees.
The IRS has taken action to reduce the average time it takes to hire employees for the filing
season. However, because of business needs, it is not uncommon for some employees to wait
150 to more than 200 calendar days from when a job is announced until they start work at the
IRS. For example, 6 percent of the announcements (37 out of 637) took more than 150 calendar
days from the announcement opening to the date the new employee reported for work. These
delays result from the need for the IRS HCO employment offices to announce hiring for some
seasonal positions in advance in order to have enough qualified candidates to meet
W&I Division needs. These applicants are advised that they are applying for positions that will
be filled at a later date.

25
   Background investigations, including fingerprinting and completion of detailed personal and financial information
questionnaires, are required for most IRS employees because they are entrusted with sensitive taxpayer information.
26
   The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
27
   We reviewed 16 filing season hires from filing season hiring reports covering pay periods beginning
May 23, 2010, through February 25, 2012, where W&I Division management either did not receive enough
commitments from applicants to meet their hiring goals or large numbers of employees did not show up for work.
In each case, W&I Division management either decided that fewer new employees were needed than initially
estimated or acted quickly to hire replacements to meet workload needs. We used a judgmental sample
(a nonstatistical sample, the results of which cannot be used to project to the population).
                                                                                                            Page 8
                             New Employees Are Being Hired More Quickly;
                                However, Improvements Are Needed to
                                 Correct Some Hiring Monitoring Data



The SB/SE Division has the challenge of balancing training and orientation
efficiency with reducing hiring timelines
The SB/SE Division hires large groups of mission-critical employees through the use of wave
hiring. Due to budget constraints, a significant number of employees have not been hired since
FY 2009. Figure 3 shows that, in FY 2009, it took approximately 150 to 260 calendar days to
hire employees using wave hiring.
               Figure 3: Hiring Timelines for Three FY 2009 Wave Hires

                                         Number of Calendar
                                           Days From Job
                  Type of                 Announcement to                  Number of
               Employee Hired                Start Date                  Employees Hired
                Revenue Agent                       260                          254

               Revenue Officer                      150                          534

               Tax Compliance                       150                          179
                   Officer
           Source: Our analysis of SB/SE Division human resources specialists’ timeline plans for
           three wave hires completed in FY 2009.

Since the last significant wave hire in FY 2009, the President issued a directive to agencies
requiring a substantial reduction in the amount of time it takes to hire new mission-critical
employees. This will be a challenge for the SB/SE Division because wave hiring is not focused
on hiring in a short period of time. According to IRS officials, wave hiring is focused on hiring a
large number of employees to start work at the same time so that training can be efficiently and
consistently accomplished as a group. It also has the benefits of allowing for centralized delivery
and support of equipment, fostering camaraderie among new hires, and laying the foundation for
a positive onboarding experience so that employees will stay with the organization. While wave
hiring is not focused on quickly hiring employees, the SB/SE Division has taken actions to
reduce hiring timelines:
      Creating Career Connector Templates – SB/SE Division management worked with the
       IRS HCO to develop Career Connector templates for all positions commonly filled by
       wave hiring. This will help reduce hiring timelines by approximately 30 calendar days.
      Developing Detailed Hiring Timeline Plans – To monitor wave hiring, SB/SE Division
       human resource specialists have developed detailed hiring timeline plans for each wave
       hire. These plans are based on the specialist’s estimate of the time it takes to complete
       each hiring step for the number of employees being hired. However, our review of these
       plans identified several factors that can significantly impact the developed timeline

                                                                                                    Page 9
                               New Employees Are Being Hired More Quickly;
                                  However, Improvements Are Needed to
                                   Correct Some Hiring Monitoring Data



         resulting in the hiring timeframe being extended. First, the IRS considers internal
         applicants before considering external applicants, which requires IRS managers to
         conduct the selection process twice.28 Second, there is a 30-calendar-day cutoff prior to
         the date new employees start work to allow the IRS to complete administrative tasks such
         as obtaining travel cards and work space. Last, more time is required to hire around
         holidays because prospective employees and managers may not be available. In response
         to our discussions with IRS management regarding factors that affect their timeline plans,
         SB/SE Division management stated that they conduct hiring studies and review wave
         hiring to identify ways to improve. Management also noted that they plan to continue
         wave hiring for new technical employees.29

Data for Monitoring the Time Taken to Hire New Employees Were
Incorrect for Some Manually Rated and Ranked Applications
We identified that IRS HCO ad hoc hiring inventory report data were incorrect for
nine (38 percent) of the 24 IT organization new hires we sampled.30 These inventory reports
were developed to enable divisions to track in-process job announcements and take corrective
actions when delays in the selection process occurred. As a result, IRS divisions cannot rely on
the reports to monitor in-process hiring or to identify when hiring delays occur.
IRS HCO management stated that the incorrect information related to those hiring
announcements where the applications were manually rated and ranked. The IRS HCO
employment office creates a certificate31 through Career Connector for manual rating and ranking
of the applications and forwards the applications to the hiring office. Once the hiring office
completes the rating and ranking process, the ranking package is returned to the IRS HCO
employment office. The IRS HCO is responsible for entering the date the ranking package was
returned and closing the ranking certificate in Career Connector. Incorrect hiring inventory
reports resulted from:
        The IRS HCO employment office selecting the incorrect certificate in Career Connector
         to send the rating and ranking package to the hiring office. This occurred because Career
         Connector has up to six different types of certificates that may be generated, but not all
         six options are used by the IRS. At times, the certificates that should not have been used
         were incorrectly selected. When an incorrect certificate is selected, there is no ranking
         certificate to close when the hiring office returns the package to the IRS HCO


28
   IRS regulations and the IRS’s agreement with the National Treasury Employees Union require that internal
applicants be considered before external applicants.
29
   According to IRS HCO management, wave hiring also addresses issues raised by new hires during the
SB/SE Divisions’ focus groups.
30
   See Appendix I for additional information about the sampling methodology.
31
   A list of applicants that is certified by the IRS HCO.
                                                                                                        Page 10
                           New Employees Are Being Hired More Quickly;
                              However, Improvements Are Needed to
                               Correct Some Hiring Monitoring Data



       employment office. As a result, the program that measures the hiring timelines
       incorrectly calculates the amount of time required for selecting the candidate.
      The IRS HCO employment office selecting the correct certificate for sending the rating
       and ranking package to the hiring office but not correctly entering the date the rating and
       ranking package was returned from the hiring manager. As a result, the program
       incorrectly calculated the timeline using the date of the initial certificate instead of the
       date that the certificate selected was sent for ranking.
It is critical that management has accurate hiring information for use in monitoring
IRS compliance with Presidential and OPM mandates related to reducing the amount of time it
takes to hire new employees. When we brought this to IRS HCO management’s attention, they
immediately began taking corrective action by discussing, in meetings with employment office
staff, the correct procedures for closing ranking packages through Career Connector.
IRS HCO management believes this issue will be addressed as more IRS positions have
Career Connector templates to allow automatic rating and ranking; however, this issue may
continue as long as some application packages are manually rated and ranked.

Recommendations
Recommendation 1: The Director, IRS HCO Employment, Talent, and Security, should
deactivate any Career Connector certificate options that are not used by the employment offices
and issue formal guidance to the employment offices for selecting the correct certificate type in
Career Connector.
       Management’s Response: IRS HCO management agreed with this recommendation
       and has deactivated Career Connector certificate options that are not used by the
       employment offices and issued guidance for selecting the correct certificate type in
       Career Connector.
Recommendation 2: The Director, IRS HCO Employment, Talent, and Security, should
correct Career Connector report-writing programming to use the issuance date of the selection
certificate when calculating the time spent by the divisions on rating and ranking certificates.
       Management’s Response: IRS HCO management agreed with this recommendation
       and provided alternative corrective action. Career Connector reports properly calculate
       cycle time for all Career Connector announcements. With the deactivation of certificates
       that were being incorrectly used, and with completed education activities and continuing
       emphasis on quality review, IRS HCO management expects timelines will be accurately
       calculated in Career Connector. In addition, on December 31, 2012, the IRS will retire
       the Career Opportunity Listing, and all hiring timelines will be reported using only one
       system – Career Connector. Once all announcements are posted on USAJOBS/Career
       Connector, this recommendation will be fully implemented.

                                                                                            Page 11
                                New Employees Are Being Hired More Quickly;
                                   However, Improvements Are Needed to
                                    Correct Some Hiring Monitoring Data



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the actions taken by the IRS divisions to monitor and
improve the efficiency of hiring new employees. To accomplish this objective, we:
I.       Through discussions and review of documentation,1 determined whether Career
         Connector templates have scheduled completion dates for all IRS positions.
II.      Assessed the actions taken by IT organization management to monitor and improve the
         efficiency of ad hoc hiring to reduce the hiring timeline to 80 calendar days.
         A. Through discussions and review of documentation, identified the process used by
            IT organization management to monitor and improve the efficiency of hiring.
         B. Determined whether inefficiencies in the hiring process controlled by the
            IT organization were identified and addressed by IT organization management.
             1. Obtained and reviewed IRS HCO data for IT organization ad hoc hiring for
                October 2009 through March 2012. We did not validate the completeness or
                accuracy of the data provided.
             2. Selected a judgmental sample2 of 24 completed IT organization ad hoc hiring
                announcements from a population of 481 announcements where selections took
                more than 20 calendar days, including 10 from FY 2010 (five internal and five
                external announcements), 10 from FY 2011 (five internal and five external
                announcements), and four from FY 2012 with enter-on-duty dates through
                November 21, 2011, (two internal and two external announcements). A
                judgmental sample was selected to identify management’s actions to address
                inefficiencies that may have occurred. We did not project the results of the
                sample across the population.
III.     Determined whether inefficiencies in the hiring process for filing season3 employees
         resulted in delays in hiring employees when needed.
         A. Through discussions and review of documentation, identified the process used by
            W&I Division management to monitor and hire filing season employees.


1
  There was no independent source to validate Career Connector documentation obtained. Therefore, we were
unable to validate the completeness and reliability of the data provided.
2
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
3
  The period from January through mid-April when most individual income tax returns are filed.
                                                                                                             Page 12
                                New Employees Are Being Hired More Quickly;
                                   However, Improvements Are Needed to
                                    Correct Some Hiring Monitoring Data



         B. Obtained and reviewed filing season hiring reports reflecting hiring for the 2010 and
            2011 Filing Seasons and the 2012 Filing Season through March 31, 2012, and
            compared the planned and actual hiring numbers. We did not validate the
            completeness or accuracy of the data provided.
             1. Selected a judgmental sample of 16 filing season hires from filing season reports
                covering the pay periods beginning May 23, 2010, through February 25, 2012.4
                The sample included three pay periods where candidate commitments did not
                meet the hiring goal for the pay period, and 13 pay periods where less than
                75 percent of the candidates that had committed did not enter-on-duty. We
                selected a judgmental sample to identify management’s actions to address
                inefficiencies that may have occurred. We did not project the results of the
                sample across the population.
             2. Through a review of available documentation and discussions with
                IRS management, determined the reasons for not meeting filing season hiring
                goals.
IV.      Determined whether inefficiencies in hiring resulted in delays in hiring employees when
         needed.
         A. Through discussions and review of documentation, identified the process used by
            SB/SE Division management to monitor and hire wave employees and determined
            whether SB/SE Division management had evaluated if wave hiring is the most
            efficient way to hire.
         B. Obtained and reviewed wave hiring reports for FY 2009 and compared the planned
            and actual hiring numbers. We did not validate the completeness or accuracy of the
            reports provided.
             1. Selected a judgmental sample of three completed wave hires (revenue agent,
                revenue officer, and tax compliance officer hiring)5 from the population of
                13 wave hires in FY 2009 where the target number was not met. We selected a
                judgmental sample because the intent was to identify management’s actions to
                address inefficiencies that may have occurred. We did not project the results of
                the sample across the population.



4
  New employees are hired to start work at the beginning of a pay period, and filing season reports reflect hiring
goals and numbers by pay period.
5
  Revenue agents perform examinations of individuals and businesses and are critical positions for achieving the
IRS’s mission. Revenue officers collect taxes due and are critical positions for achieving the IRS’s mission. Tax
compliance officers conduct investigations of individuals and businesses to determine tax liabilities and provide
technical assistance to internal and external customers. These positions are considered mission-critical.
                                                                                                            Page 13
                          New Employees Are Being Hired More Quickly;
                             However, Improvements Are Needed to
                              Correct Some Hiring Monitoring Data



           2. Through review of available documentation and discussions with
              IRS management, determined the reasons for not meeting wave hiring goals.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS HCO, IT organization,
SB/SE Division, and W&I Division policies, procedures, and practices for monitoring,
measuring, identifying, and improving IRS hiring timelines. We evaluated these controls by
interviewing IRS HCO, IT organization, SB/SE Division, and W&I Division management and
reviewing applicable information.




                                                                                        Page 14
                        New Employees Are Being Hired More Quickly;
                           However, Improvements Are Needed to
                            Correct Some Hiring Monitoring Data



                                                                           Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Julia Moore, Lead Auditor
John M. Jarvis, Auditor
Dana M. Karaffa, Audit Evaluator




                                                                                  Page 15
                        New Employees Are Being Hired More Quickly;
                           However, Improvements Are Needed to
                            Correct Some Hiring Monitoring Data



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Assistant Deputy Commissioner for Operations Support OS
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief Technology Officer OS:CTO
IRS Human Capital Officer OS:HC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
    Commissioner, Small Business/Self-Employed Division SE:S
    Commissioner, Wage and Investment Division SE:W:S
    Chief Technology Officer OS:CTO
    IRS Human Capital Officer OS:HC




                                                                       Page 16
                               New Employees Are Being Hired More Quickly;
                                  However, Improvements Are Needed to
                                   Correct Some Hiring Monitoring Data



                                                                                              Appendix IV

                                     Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Reliability of Information – Actual; nine job announcement records (see page 10).

Methodology Used to Measure the Reported Benefit:
We reviewed IRS HCO data for a judgmental sample of 24 of 481 completed IT ad hoc hiring
announcements with entry-on-duty dates for the period October 1, 2009, through
November 21, 2011, where selections took more than 20 calendar days.
The number of days spent in selecting the candidate per the IRS HCO’s inventory report data
was incorrect in nine (38 percent) of the 24 sampled announcements. IRS HCO management
stated that incorrect information related to those hiring announcements where the applications
were manually rated and ranked.1 The IRS HCO employment office creates a certificate2 through
Career Connector for manual rating and ranking of the applications and forwards the applications
to the hiring office. Once the hiring office completes the rating and ranking process, the ranking
package is returned to the IRS HCO employment office. The IRS HCO is responsible for
entering the date the ranking package was returned and closing the ranking certificate in Career
Connector. Incorrect inventory reports resulted from:
   The IRS HCO employment office selecting the incorrect certificate in Career Connector to
    send the rating and ranking package to the hiring office. This occurred because Career
    Connector has up to six different types of certificates that may be generated, but not all
    six options are used by the IRS. At times, certificates that should not have been used were
    incorrectly selected. When an incorrect certificate is selected, there is no ranking certificate
    to close when the hiring office returns the package to the IRS HCO employment office. As a
    result, the program that measures the hiring timelines incorrectly calculates the amount of
    time required for selecting the candidate.



1
  Our sample included application packages that were completed prior to the use of Career Connector for automatic
rating and ranking.
2
  A list of applicants that is certified by the IRS HCO.
                                                                                                         Page 17
                            New Employees Are Being Hired More Quickly;
                               However, Improvements Are Needed to
                                Correct Some Hiring Monitoring Data



   The IRS HCO employment office selecting the correct certificate for sending the ranking
    package to the hiring office, but not correctly entering the date the ranking package was
    returned from the hiring manager. As a result, the program incorrectly calculated the
    timeline using the date of the initial certificate instead of the date that the certificate selected
    was sent for ranking.




                                                                                                Page 18
         New Employees Are Being Hired More Quickly;
            However, Improvements Are Needed to
             Correct Some Hiring Monitoring Data



                                                 Appendix V

Management’s Response to the Draft Report




                                                       Page 19
New Employees Are Being Hired More Quickly;
   However, Improvements Are Needed to
    Correct Some Hiring Monitoring Data




                                              Page 20
